Audit Report




OIG-07-049
GENERAL MANAGEMENT: BEP Generally Has an Effective
Program to Monitor Employees Receiving Workers’ Compensation
Payments
September 20, 2007



Office of
Inspector General
Department of the Treasury
Contents


Audit Report..................................................................................................... 1

    Background ................................................................................................. 1

    Finding and Recommendation ........................................................................ 3

        BEP Generally Has an Effective Program to Monitor Employees Receiving
        Workers’ Compensation Payments, But Certain Internal Procedures
        Should Be Formalized ............................................................................... 3

        Recommendation ..................................................................................... 5

Appendices

    Appendix 1:          Objective, Scope, and Methodology .......................................... 7
    Appendix 2:          Management Response ........................................................... 8
    Appendix 3:          Report Distribution.................................................................. 9

Abbreviations

    BEP                  Bureau of Engraving and Printing
    COP                  Continuation of Pay
    DOL                  Department of Labor
    ECF                  Eastern Currency Facility
    FECA                 Federal Employees’ Compensation Act
    Fund                 Employees’ Compensation Fund
    HR                   Human Resources
    OIG                  Office of Inspector General
    OWCP                 Office of Workers’ Compensation Programs
    WCP                  Workers’ Compensation Program




                         BEP Generally Has an Effective Program to Monitor Employees                         Page i
                         Receiving Workers’ Compensation Payments (OIG-07-049)
This Page Intentionally Left Blank.
                                                                                Audit
OIG
The Department of the Treasury
                                                                                Report
Office of Inspector General




                  September 20, 2007

                  Larry R. Felix
                  Director
                  Bureau of Engraving and Printing

                  The Federal Employees’ Compensation Act (FECA) provides
                  compensation benefits to civilian employees of the United States
                  for disability due to personal injury or disease sustained while they
                  are in the performance of duty. FECA also provides for payment of
                  benefits to an employee’s dependents if a work-related injury or
                  disease causes the employee’s death. We conducted an audit to
                  determine whether the Bureau of Engraving and Printing (BEP) has
                  an effective program to monitor employees receiving workers’
                  compensation payments. In accordance with the Office of
                  Inspector General Fiscal Year 2007 Annual Plan, we are conducting
                  similar audits at other selected Department of the Treasury offices
                  and bureaus. Appendix 1 contains a description of our objective,
                  scope, and methodology.

                  In brief, we found that, overall, BEP has an effective program
                  to monitor employees receiving workers’ compensation payments,
                  but did not have written internal guidelines to address case file
                  management and to monitor the status of overpayments. We are
                  making one recommendation to address this matter. In the
                  management response, provided as Appendix 2, BEP concurred
                  with this recommendation.

Background

                  FECA benefits include compensation for lost wages, monetary
                  awards for bodily impairment or disfigurement, medical care, and
                  vocational rehabilitation. The Department of Labor (DOL) Office of
                  Workers’ Compensation Programs (OWCP) and more than 70
                  employing federal agencies share responsibilities for ensuring the

                  BEP Generally Has an Effective Program to Monitor Employees       Page 1
                  Receiving Workers’ Compensation Payments (OIG-07-049)
                     efficiency, effectiveness, and integrity of the major benefit program
                     established under FECA. OWCP’s Injury Compensation for Federal
                     Employees serves as a handbook for federal agency personnel
                     specialists, compensation specialists, and supervisors.1

                     All workers’ compensation claims are adjudicated by OWCP. FECA
                     provides that an employee’s regular pay may be continued for up
                     to 45 calendar days to avoid interruption of an employee’s income,
                     while the case is being adjudicated by OWCP. This 45-day time
                     frame is referred to as the continuation-of-pay (COP) period. OWCP
                     begins paying FECA compensation benefits at the end of the COP
                     period. Compensation for wage loss is paid at a percentage of the
                     employee’s salary. The Employees’ Compensation Fund (Fund)
                     finances OWCP FECA payments.

                     Workers’ compensation costs are assigned to employing agencies
                     annually at the end of the fiscal accounting period, which runs
                     from July 1 to June 30. Each year, OWCP provides each agency
                     with quarterly chargeback reports, then a final, annual chargeback
                     billing list, which is a statement of payments made from the Fund
                     on account of injuries to its employees. Employing agencies
                     reimburse the Fund for these payments.

                     Employing agencies play a major role in containing FECA costs by
                     maintaining contact with the employee, helping recovering
                     employees return to work, and accommodating light duty work,
                     when possible.

                     During January 2007, the Deputy Assistant Secretary for Human
                     Resources and Chief Human Capital Officer issued guidance
                     through the policy-setting Office of Human Resources Strategy and
                     Solutions on the Treasury Workers’ Compensation Program (WCP)
                     that outlines responsibilities for bureau heads, bureau WCP staff,
                     supervisors, and employees.2 BEP produces currency at two
                     facilities that employ approximately 2,600 individuals. The Eastern
                     Currency Facility (ECF) is located in Washington, DC, and the
                     Western Currency Facility is located in Fort Worth, Texas.

1
 OWCP Publication CA-810, Injury Compensation for Federal Employees (January 1999).
2
 Office of Human Resources Strategy and Solutions, Human Resources Issuance System, Chapter 810,
Transmittal No. 07-007, “Workers’ Compensation Program” (January 21, 2007).

                     BEP Generally Has an Effective Program to Monitor Employees           Page 2
                     Receiving Workers’ Compensation Payments (OIG-07-049)
                       BEP’s Office of Environment, Health, and Safety manages
                       programs that minimize BEP’s impact on the environment, enhance
                       employee wellness, and protect workers from injuries and
                       disabilities. One of its programs is the WCP, which is managed
                       through the Office of Human Resources (HR). Each facility has its
                       own HR group.

                       A BEP goal is to reduce occupational injury and illness rates. BEP
                       injury prevention efforts in fiscal year 2006 resulted in a decrease
                       of $6 million in the actuarial liability for workers’ compensation, to
                       a total of $53.5 million.3 According to BEP, this decrease in
                       actuarial liability was the result of its continued focus on creating a
                       safer working environment and reducing the loss of employee work
                       time caused by injuries.

Finding and Recommendation

                       BEP Generally Has an Effective Program to Monitor
                       Employees Receiving Workers’ Compensation Payments,
                       But Certain Internal Procedures Should Be Formalized

                       We found that, overall, BEP has an effective program to monitor
                       employees receiving workers’ compensation payments.
                       Specifically, BEP has policies and procedures for the administration
                       of FECA that outline assigned responsibilities, the extent of
                       coverage, and procedures for the administration of light and limited
                       duty. BEP monitors the quarterly chargeback reports received from
                       OWCP. It also uses internal monthly reports to (a) review
                       compensation cases, (b) monitor the number of COP days,
                       (c) analyze the costs related to injuries, (d) review cost savings,
                       (e) monitor cases referred to OIG, and (f) review long-term cases.
                       In addition, we found that HR staff members have a working
                       knowledge of cases without referring to documents/files and keep

3
  The FECA liability consists of two components. One component, the actuarial FECA liability, is the
liability for future benefit payments as estimated by DOL. The other component, the accrued FECA
liability, is based on actual claims paid by DOL. For chargeback year 2006, BEP’s accrued liability was
$4.2 million. The chargeback year runs from July through June. BEP reimburses DOL for the amount of
actual claims, normally within 1 to 2 years after payment is made by DOL.

                       BEP Generally Has an Effective Program to Monitor Employees                Page 3
                       Receiving Workers’ Compensation Payments (OIG-07-049)
                      BEP management abreast of issues at regular WCP meetings.4
                      Furthermore, when necessary, BEP also controverts5 claims during
                      initial processing; investigates workers’ compensation issues; and
                      pursues third party liability.6

                      During our review, we identified three areas in which BEP could
                      strengthen its WCP. We discussed these with HR managers and
                      staff, and believe that the areas have since been addressed.

                      •   ECF was unable to locate 2 of the 57 case files that we
                          selected for review. FECA benefits paid on these cases totaled
                          approximately $6,000 for chargeback years 2004 through
                          2006. The WCP manager believes that the files may have been
                          destroyed when a storage area was being cleared. BEP
                          subsequently recreated the case files.

                      •   At the time of our review, 12 ECF case files did not contain
                          current forms CA-1032.7 BEP HR staff explained that although
                          the CA-1032 forms are generally part of the file, OWCP does
                          not send the bureau copies after receiving the completed forms
                          from workers’ compensation recipients. BEP generally obtains
                          copies of these forms when a staff member calls or visits
                          OWCP to review the case files and to obtain information. ECF
                          staff advised us that BEP had contacted the responsible OWCP
                          office and has since obtained more than half of the missing
                          forms.

                      •   The status of overpayments was not being monitored. Our
                          sample cases included 13 overpayments, totaling approximately




4
  In addition to HR representatives, the WCP meetings may include personnel from the following groups:
the Office of Chief Counsel; the Office of Security; and the Office of Environment, Health, and Safety.
5
  An agency's objection to paying COP for one of the reasons provided by regulation is called
controversion.
6
  A third-party claim arises when an injury is caused by a person or object under circumstances which
indicate there is a legal liability on a party other than the U.S. government to pay the damages.
7
  OWCP policy requires FECA claimants receiving compensation benefits to periodically certify their
earnings information and dependent status on a “Request for Information on Earnings, Dual Benefits,
Dependents and Third Party Settlements Form” (CA-1032). This information is used to determine if any
changes are necessary to a claimant's benefit amount.

                      BEP Generally Has an Effective Program to Monitor Employees                Page 4
                      Receiving Workers’ Compensation Payments (OIG-07-049)
                         $27,000.8 HR staff advised that overpayments are generally
                         identified by BEP rather than OWCP. While resolution of
                         overpayments is the responsibility of OWCP, at the time of our
                         review there had been no recent follow-up by BEP as to the
                         status. Once we raised the issue, BEP staff contacted OWCP.
                         The majority of the overpayments have since been resolved,
                         and status requests are pending with OWCP on the others.

                     At the time of our review, BEP did not have internal guidelines
                     specifically addressing the three issues discussed above. Such
                     internal guidelines, which are sometimes called desk procedures,
                     would be at a more detailed level than the overall WCP policies and
                     procedures discussed above.

                     Although there is no OWCP requirement for detailed written
                     internal guidelines, we consider it prudent and sound business
                     practice to develop and implement such guidelines, which serve as
                     a line of defense in safeguarding assets and in preventing and
                     detecting errors and fraud. Internal guidelines that prescribe steps
                     to monitor case files and employees with work-related injuries will
                     help to improve the efficiency of the program, possibly reduce
                     program costs, and aid in the recovery of overpayments to
                     claimants.

                     We discussed this matter with the ECF HR manager, who
                     concurred and advised us that BEP is developing written internal
                     guidelines outlining specific steps to be taken for workers’
                     compensation cases. Among the areas to be covered are
                     conducting a periodic inventory to make sure there is a file for each
                     case, tracking and reviewing forms CA-1032, and monitoring the
                     status of overpayments.

                     Recommendation

                     We recommend that the Director of BEP ensure that written
                     internal guidelines are developed to outline specific steps to
                     monitor the status of workers’ compensation cases.

8
  These overpayments were caused by issues such as an underdeduction for Basic Life Insurance
coverage and an excess payment on a Schedule Award. Also, three of the overpayments were to one
recipient.

                     BEP Generally Has an Effective Program to Monitor Employees           Page 5
                     Receiving Workers’ Compensation Payments (OIG-07-049)
    Management Response

    BEP concurs with this recommendation and will develop and
    implement internal guidelines to monitor the status of workers’
    compensation cases by January 2008.

    OIG Comment

    We believe that the actions planned by BEP address the intent
    of the recommendation.

                                *******

We appreciate the courtesies and cooperation provided to our staff.
If you wish to discuss this report, you may contact me at
(202) 927-6512 or Maria V. Carmona, Audit Manager,
at(202) 927-6345. Major contributors to this report were
Ms. Carmona; Gerald H. Kelly, Auditor-In-Charge; and Horace A.
Bryan, Auditor.




Stephen P. Syriala
Acting Director, Fiscal Service Audits




BEP Generally Has an Effective Program to Monitor Employees    Page 6
Receiving Workers’ Compensation Payments (OIG-07-049)
                      Appendix 1
                      Objective, Scope, and Methodology




                      Our audit objective was to determine whether the Bureau of
                      Engraving and Printing (BEP) has an effective program to monitor
                      employees receiving workers’ compensation payments.

                      We performed fieldwork primarily from November 2006 to March
                      2007 in Washington, DC. As part of the fieldwork, we reviewed
                      laws, regulations, and Treasury and BEP guidance. We interviewed
                      BEP management to gain an understanding of the workers’
                      compensation process and controls at BEP. This included personnel
                      at both BEP facilities, including HR, Counsel, and Security staff.
                      We analyzed data from the 2006 chargeback report for BEP and
                      files for indicators of program abuse, and referred such instances
                      to the Office of Investigations for further inquiry.

                      We also selected for review a sample of 85 records from a universe
                      of 420 records of compensation and/or medical payments made
                      during chargeback years 2004 through 2006.9 This sample
                      included 57 claimants for the Eastern Currency Facility and
                      28 claimants for the Western Currency Facility. We determined if
                      BEP had case files for each record in our sample. Additionally, we
                      checked each file for completeness, which included, but was not
                      limited to, whether there were certain OWCP basic forms in the
                      file, such as the CA-1032s. We also determined whether BEP was
                      monitoring the status of overpayments and reviewing the case files
                      for opportunities to return the injured employees to limited
                      light-duty work.

                      We conducted our audit in accordance with generally accepted
                      government auditing standards.


9
 There were a total of 1,059 individual BEP cases during the 2004-2006 chargeback periods, totaling
more than $13.4 million in compensation and medical payments. From this universe, we removed any
case that had a zero or negative balance. A zero balance indicates that no compensation or medical
payments were made. A negative balance indicates that an overpayment was collected during the
period. In addition, if a claimant name appeared more than once, the cases were counted as one record.




                      BEP Generally Has an Effective Program to Monitor Employees               Page 7
                      Receiving Workers’ Compensation Payments (OIG-07-049)
Appendix 2
Management Response




BEP Generally Has an Effective Program to Monitor Employees   Page 8
Receiving Workers’ Compensation Payments (OIG-07-049)
Appendix 3
Report Distribution




Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Bureau of Engraving and Printing

Associate Director (Chief Financial Officer)

Office of Management and Budget

OIG Budget Examiner




BEP Generally Has an Effective Program to Monitor Employees   Page 9
Receiving Workers’ Compensation Payments (OIG-07-049)
